        DEFENSE CONTRACT AUDIT AGENCY REVIEWS
                  OF PRICE PROPOSALS




Report Number PO 98-6-013                 June 18, 1998



              Office of the Inspector General
                  Department of Defense
Additional Copies

To obtain additional copies of this evaluation report, contact the Secondary Reports
Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8937 (DSN 664-8937) or FAX (703) 604-8932 or visit the Inspector
General, DOD, Home Page at: WWW.DODIG.OSD.MIL

Suggestions for Future Evaluations

To suggest ideas for or to request future evaluations, contact the Planning and
Coordination Branch of the Analysis, Planning, and Technical Support Directorate at
(703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
can also be mailed to:

                      OAIG-AUD (ATTN: APTS Audit Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

Defense Hotline

To report fraud, waste, or abuse, contract the Defense Hotline by calling
(800) 424-9098; by sending an electronic message to Hotline@DODIG.OSD.MIL;
or by writing the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
The identity of each writer and caller is fully protected.


Acronyms

AC0                   Administrative Contracting Officer
AMIS                  Agency Management Information System
                      Contracting Officer
Z  AA
DCAM
                      Defense Contract Audit Agency
                      DCAA Contract Audit Manual
DCMC                  Defense Contract Management Command
DFARS                 Defense Federal Acquisition Regulation Supplement
FAR                   Federal Acquisition Regulation
FAO                   Field Audit Office
FMIS                  FAO Management Information System
FPRA                  Forward Pricing Rate Agreement
FPRR                  Forward Pricing Rate Recommendation
GAS                   Government Auditing Standards
MRD                   Memorandum for Regional Directors
NAVSEA                Naval Sea Systems Command
PAT                   Process Action Team
PC0                   Procurement Contracting Officer
SUPSHIP               Supervisor of Shipbuilding, Conversion, and Repair
                             INSPECTOR     GENERAL
                            DEPARTMENT   OF DEFENSE
                              400 ARMY NAVY DRIVE
                            ARLINGTON, VIRGINIA 22202




                                                                           June 18, 1998

MEMORANDUM FOR ASSISTANT SECRETARY OF THE NAVY (FINANCIAL
                 MANAGEMENT AND COMPTROLLER)
               DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY

SUBJECT: Evaluation Report on Defense Contract Audit Agency Reviews of Price
         Proposals (Report No. PO 98-6-013)


        We are providing this final evaluation report for review and comment. We
considered management comments to our draft report dated January 12, 1998, in
preparing the final report.

        This report is second in a series of two reports related to field pricing. This
report addresses Defense Contract Audit Agency field pricing support to procurement
and administration offices. The first, Report No. PO 97-058, “Evaluation of DOD
Requests for Field Pricing Audit Support,” September 30, 1997, addressed DOD
procedures for requesting field pricing.

        DOD Directive 7650.3 requires that all recommendations be resolved promptly.
As a result of management comments, we revised Recommendation l.c. to the Defense
Contract Audit Agency to clarify our intention. We request that the Director, Defense
Contract Audit Agency provide comments to the final report by August 17, 1998. The
Assistant Secretary of the Navy (Financial Management and Comptroller) comments to
the draft report conformed to the requirements of DOD Directive 7650.3 ; therefore,
additional comments from the Assistant Secretary are not required.

         We appreciate the courtesies extended to the evaluation staff. Questions on
the evaluation should be directed to Ms. Madelaine E. Fusfield at (703) 604-8739
(DSN 664-8739) (email mft.tsfield@dodig.osd.mil) or Mr. Terrence J. Letko at
(703) 604-8759 (DSN 664-8759) (email tletko@dodig.osd.mil). Please refer to
Appendix D for the distribution of the evaluation report. The evaluation team members
are listed inside the back cover.




                                         Robert J. Lieberman
                                      Assistant Inspector General
                                              for Auditing
                         Office of the Inspector General, DOD

Report No. PO 98-6-013                                                     June 18, 1998
   (Project No. 6OC-0086.1)

                              Defense Contract Audit Agency
                                Reviews of Price Proposals


                                   Executive Summary

Introduction. This report is the second related to field pricing. This report addresses
Defense Contract Audit Agency field pricing support to procurement and contract
administration offices. The first, Report No. PO 97-058, “Evaluation of DOD
Requests for Field Pricing Audit Support, September 30, 1997, addressed DOD
procedures for requesting field pricing.

Auditors perform field pricing reviews of contractor price proposals when procurement
office information is insufficient to perform the cost or price analysis needed to
negotiate contract prices. According to Federal Acquisition Regulation part 15,
“Contracting by Negotiations,” audit services should be tailored to provide the
minimum supplementary information necessary. Auditors are responsible for the depth
and scope of the audit service as well as helping the contracting officer determine the
required field pricing and specific areas of coverage. Informal telephone rate
procedures are acceptable when pricing information based on recent audits and existing
accounting information is available at the audit office. For FY 1996, the Defense
Contract Audit Agency (DCAA) completed more than 11,000 formal audits and
reviews, using 414 staff years exclusive of supervision. An additional 167 staff years
were expended to review forward pricing rates associated with contractors’ proposals.

Evaluation Objectives. The overall objective was to evaluate the processes used to
request and complete Defense Contract Audit Agency audits and reviews of contractor
price proposals, with emphasis on major weapons programs.

Evaluation Results. Our review of seven field audit offices, six contract
administration field offices, and four military procurement offices showed that the
scope of audit services was appropriate for large proposals when contractors were
required to submit cost or pricing data. However, when pricing information was
already available, auditors performed many unnecessary audits on low-risk proposals.
Of 85 proposal audits and formal agreed-upon procedure reviews that we judgmentally
selected for evaluation during field visits, 58 were unnecessary because pricing
information was already available without further review procedures. Additionally,
129 of 255 agreed-upon procedure reviews statistically selected for evaluation were
unnecessary for similar reasons. Administrative Contracting Officers located at prime
contractor facilities seldom coordinated the requests with auditors or with requestors to
explain the information already available. The unnecessary audits and reviews
represented an estimated $4.8 million of audit resources during FY 1996. These audit
resources were and are critically needed to review contractor incurred cost submissions
that are backlogged, contractor compliance with Cost Accounting Standards and with
the Truth in Negotiation Act, and contractor reorganization and restructing costs.
Recommendations in this report, if implemented, will result in more effective use of
audit resources. The benefits derived from reduced oversight of price proposals will
also reduce contractor overhead incurred when supporting low-risk audits and will,
therefore, reduce acquisition costs.
Summary of Recommendations. We recommend that the Director, Defense Contract
Audit Agency, amend guidance to require that auditors discuss pricing requests with the
initial requestor. When requested information is readily available, auditors should
advise requestors of that fact. Audit guidance on performing low-risk pricing reviews
should be clarified, and the use of telephone rate procedures should be emphasized
when pricing information is already available. We also recommend that the
Commander, Naval Sea Systems Command, issue guidance to implement Federal
Acquisition Regulation part 15 guidance on field pricing assistance and the reporting.

Management Comments. The Office of the Assistant Secretary of the Navy
(Research, Development, and Acquisition) concurred with our recommendation and the
Naval Sea Systems Command issued guidance to establish early communications with
auditors regarding field pricing requests. The Defense Contract Audit Agency partially
concurred with our recommendation to revise the Defense Contract Audit Manual to
implement the Federal Acquisition Regulation 15.404-2(b)(l)(i) requirement to
encourage telephone use to transmit pricing information. The Defense Contract Audit
Agency also partially concurred with a recommendation to clarify Defense Contract
Audit Manual for methods to use for evaluating low risk proposals. However, they
disagreed with a recommendation to require that auditors cognizant of subcontractors
discuss field pricing requests with initiating requestors, including prime contractors.

Evaluation Response. Comments from the Assistant Secretary of the Navy (Financial
Management and Comptroller) are responsive. As a result of the DCAA response to
our recommendation addressing subcontract price proposal requests, we clarified the
recommendation to only have the auditors cognizant of the subcontractor coordinate
with the initiating requestor. The DCAA comment is responsive on the
recommendation to specifically reference FAR 15.404-2(b)(l)(i) requirements to
encourage use of telephone procedures. The DCAA comment to consolidate guidance
on the different methods for evaluating low risk proposals is also considered
responsive. DCAA should provide additional comments on the final report by
August 17, 1998.




                                           ii
Table of Contents
Executive Summary                                                        i


Part I - Evaluation Results
      Evaluation Background
      Evaluation Objectives
      Audit Services in Support of Field Pricing Requests

Part II - Additional Information
      Appendix A. Evaluation Process                                16
        Scope                                                       16
        Methodology                                                 17
      Appendix B. Summary of Prior Coverage                         20
      Appendix C. Summary of Evaluation Results by Contract Type
      Appendix D. Report Distribution                               ;;

Part III - Management Comments
      Assistant Secretary of the Navy (Research, Development, and
        Acquisition) Comments
      Defense Contract Audit Agency Comments
Part I - Evaluation Results
Evaluation Background

    The Defense Contract Audit Agency. The Defense Contract Audit Agency
    (DCAA) performs various audits and evaluations of contractor price proposals
    for the award, modification, or repricing of negotiated Government contracts.
    The extent of audit services provided depends on the nature and complexity of
    the audit request for field pricing support and the amount and reliability of
    information already available. Field pricing audit services include the
    following:

              contractor estimating system surveys;

              forward pricing rate reviews;

              individual price proposals;

              single cost elements;

              agreed-upon procedures, including cost realism reviews; and

              telephone confirmations of specific cost information.

    Estimating system surveys are audits of a contractor’s policies, procedures, and
    practices for preparing cost estimates and price proposals. Adequate estimating
    systems prevent material misstatements and ensure that identified misstatements
    are detected and corrected. Adequate systems also reduce the control risk
    associated with contractor estimates.

    Forward pricing rate reviews represent comprehensive audits of contractor
    annual budgets for labor and indirect rates. The audits may result in formal
    forward pricing rate agreements (FPRAs) or Government-accepted rates that
    contractors will use for a specified period to estimate the price of proposed
    contracts.

    Audits of individual price proposals and single cost elements are evaluations of
    cost or price estimates performed in accordance with Government Auditing
    Standards (GAS). The DCAA also provides limited cost information using non-
    audit procedures. The DCAA Contract Audit Manual (DCAM) 9-108, “Review
    of a Part of a Price Proposal - Agreed-upon Procedures, Specified Cost Element
    Reviews,” defines reviews of limited information, such as verification of
    current labor or overhead rates. A review of a specified cost element would
    encompass an audit of just one or two specific cost elements. The agreed-upon
    procedures are generally limited to verifications of proposed rates to FPRAs,
    recommendations in recent forward pricing audits, or other pricing data that
    have been recently audited. The procedures may also include a review of
    accounting books and records without audit tests and opinions. The DCAA
    documents the verification procedures by preparing working papers and
    reporting the results to the contracting officer (CO) in a formal report.


                                       2
The DCAA may also respond to field pricing requests by merely verifying labor
and indirect rates by telephone. The results of telephone rate verifications are
transmitted orally or recorded in standard telephone rate confirmation
memorandums.

The DCAM chapter 9-100, section 1, prescribes the administrative procedures
that auditors should follow to coordinate field pricing support.

Contracting Officers. The Federal Acquisition Regulation (FAR) subpart
1.602 outlines contracting officers’ (COs) responsibilities. COs have authority
to enter into, administer, or terminate contracts and make related determinations
and findings. COs may bind the Government only to the extent of the authority
delegated to them. No contract shall be entered into unless the CO ensures that
all requirements of law, executive orders, regulations, and all other applicable
procedures have been met. To determine whether a proposed price is fair and
reasonable, COs request field pricing assistance from contract auditors, price
analysts, quality control specialists, and engineers. Field pricing assistance may
also include information relative to the business, technical, production, or other
capabilities and practices of an offeror. The type of information and level of
detail requested will vary according to the specialized resources available at the
buying command and the magnitude and complexity of the required analysis.

After a contract is awarded, the CO usually delegates contract administration
duties to an administrative contracting officer (ACO) located at either the
Defense Contract Management Command (DCMC) or Supervisor of
Shipbuilding, Conversion, and Repair (SUPSHIP) field office. In some cases,
a CO may also delegate the responsibility for price negotiation to an ACO.

Regulations Governing Field Pricing Support. Our evaluation criteria
included the requirements in the FAR in effect during the time of our field
work. Also, we reviewed the proposed changes to FAR part 15, “Contracting
by Negotiations. ”

Through October 10, 1997, the Defense Federal Acquisition Regulation
Supplement (DFARS) 215-805-5, “Field pricing support,” and FAR 15.805-5,
“Field pricing support,” prohibited field pricing for fixed-price proposals under
$500,000 and cost-type proposals under $10 million when no significant
estimating system deficiencies existed and cost or pricing information was
available. Under certain circumstances, FAR 15.805-5 also allowed for limited
or no audits or field pricing without consideration of the dollar amount
proposed. Examples of information used to limit or decrease the need for audits
included the existence of an FPRA, recently audited information on labor and
indirect rates, or other cost information from other awards.

Regulatory changes to FAR part 15 became effective October 10, 1997, after
the completion of our field work. The revised FAR 15.404-2, “Information to
support proposal analysis,” encourages streamlining of procurement through
rapid transmittal of information. Accordingly, “[wlhenever circumstances
permit, the contracting officer and field experts are encouraged to use
telephonic and/or electronic means to request and transmit pricing information.”
Also, field pricing assistance is not required, regardless of contract type and
proposal value, when sufficient information is already available at the buying


                                    3
     activity. The revised FAR part 15 does not list the types of pricing information
     frequently available at cognizant audit offices that could be used in lieu of
     requesting audits or field pricing reviews. However, the revisions emphasize
     that requests for field pricing assistance should be tailored to reflect the
     minimum essential supplementary information needed to conduct a technical or
     cost or pricing analysis. The revised FAR emphasizes early and direct
     communication between the contracting officer and the field agencies to define
     the needed information.

     DOD Procurement Process Reform Process Action Team Report. On
     February 9, 1995, the DOD issued the “Final Report of the Procurement
     Process Reform Process Action Team,” (PAT). The report recommended
     eliminating field pricing reviews on cost-type price proposals under $10 million.
     Instead, rate confirmations should be used to evaluate proposals under the
     threshold unless adverse conditions exist.



Evaluation Objectives

     The overall objective was to evaluate the processes used to request and complete
     DCAA audits and reviews of contractor price proposals, with emphasis on
     major weapons programs. The evaluation also assessed the adequacy of internal
     control procedures at field audit offices (FAOs), DOD contract administration
     offices, and Military Department procurement offices for determining the scope
     of requested audit assistance. Our first report on this project concentrated on
     requests for audit support issued by contract administration and procurement
     offices. This report addresses DCAA assistance provided to the requestors. See
     Appendix A for a discussion of the evaluation scope and methodology and
     Appendix B for details on prior coverage related to the evaluation objectives.




                                        4
            Audit Services in Support of Field
            Pricing Requests
            When cost or pricing data were required and proposals exceeded the
            FAR and DFARS field pricing monetary thresholds, DCAA resident
            offices responsible for audits of major weapons acquisitions generally
            provided adequate field pricing support to determine the reasonableness
            of proposed costs. However, when pricing information was already
            available, DCAA auditors frequently performed unnecessary audits or
            agreed-upon procedure reviews of cost or pricing data below the
            thresholds. Auditors also performed unnecessary review procedures to
            evaluate cost realism of contractor labor and indirect cost rates when cost
            or pricing data were not required. The unnecessary reviews resulted
            from auditor noncompliance with existing audit and regulatory
            guidelines. The DCAA field pricing reviews did not properly
            incorporate regulatory guidelines and were contradictory and confusing.
            The unnecessary audits and reviews represented an estimated $4.8
            million of audit resources during FY 1996 that could have been applied
            to more urgent and beneficial audits that make up the remaining portion
            of the DCAA mission.



Use of Existing Cost and Price Information to Minimize Field
Pricing Support

     DCAM 9-103.ld.(3) directs auditors to discuss field pricing review requests
     with the AC0 or the CO before beginning a review. If the field pricing request
     is for an audit of an immaterial amount or if it could be handled as a rate
     confirmation, the auditor should discuss the request with the CO that initiated
     the request and advise accordingly. DCAM 9-107 outlines the procedures to
     follow when processing written or telephone requests for specific cost
     information. If a request for field pricing support can be completed using
     telephone rate confirmation procedures, the auditor should recommend those
     procedures to satisfy the request.

     DCAM 9-102.3, “Applicability of Dollar Thresholds,” also requires auditors to
     understand the unusual circumstances causing the CO to believe that a field
     pricing review is needed for a proposal below the applicable FAR and DFARS
     monetary thresholds.

     Field Pricing Review Procedures and Reports. The DCAA performed
     unnecessary review procedures, including the preparation of extensive audit
     reports in 129 field pricing reviews examined as part of a statistical sample of
     255 reports on the application of agreed-upon procedures. The review




                                          5
Audit Services in Support of Field Pricing Requests


      procedures were unnecessary because useful, audited information was readily
      available to meet the requests for audit support without the preparation of
      administrative working papers and reports.

      We initially visited 7 DCAA field offices and examined 85 judgmentally
      selected proposal audits and agreed-upon procedures reviews, which showed
      that 58 of the requests for audit assistance could have been satisfied by existing
      audited data. Because of the significance of our findings, we expanded our
      evaluation using statistical sampling of all 4,051 FY 1996 DCAA agreed-upon
      procedures reviews, which substantiated our initial findings.

      Appendix C provides a breakdown of the unnecessary reviews of
      noncompetitive and competitive proposals and the average monetary values of
      each proposal in our judgment and statistical samples. Competitive
      procurements differ from noncompetitive procurements in that a field pricing
      review is not required. Instead, COs usually perform a cost realism analysis of
      several variables, and the field pricing is usually limited to verifications of
      contractor direct and indirect cost rates. In the cost realism analyses we
      evaluated, auditors usually provided only rate information.

      Judgment Sample Results. Of the 85 proposal audits and agreed-upon
      procedures reviews evaluated during field visits performed at 7 DCAA FAOs,
      58 (68 percent) were unnecessary. Forty-one (71 percent) of the 58 were below
      the applicable FAR 15.805-5 and DFARS 2 15.805-5 thresholds for performing
      any field pricing review. Auditors expended unneeded effort preparing working
      papers and written reports on information that was already available as a result
      of other, recently completed audits. In many cases, those audits pertained to
      labor and overhead rates, which resulted in FPRAs between the Government
      and the contractor. The available information could have been transmitted
      efficiently over the telephone or in a brief rate confirmation memorandum.
      Appendix C provides a breakdown of the unnecessary field pricing reviews by
      contract type and average dollar value.

      During visits to COs and price analysts at four military procurement offices, we
      followed up on 20 DCAA field pricing reviews that we considered unnecessary.
      Our field visits to those offices validated an earlier observation that DCAA
      auditors did not contact COs before starting detailed audits on low-risk
      proposals. During field visits to DCAA offices, we did not find any record of
      auditor and CO discussions of field pricing requests in the working papers for
      the 58 unnecessary audits identified. Most unnecessary audits and reviews were
      under the DFARs field pricing thresholds. The working papers also did not
      document the reasons for performing the detailed audits and reviews on the low-
      dollar proposals although the DCAM 9-102.3, “Applicability of Dollar
      Thresholds, * requires that auditors understand the unusual circumstances that
      prompted a request for a low-dollar field pricing review.

              Coordination of Requests for Field Pricing Support. Coordination is
      important because COs requesting field pricing support are frequently unaware
      that pricing information is already available to evaluate proposed rates at many
      contractors. DCAM 9-103. Id., “Coordinating the CO Request for an Audit,”
      directs auditors to discuss low-risk requests with either ACOs or COs before
      starting audits. Auditors did not follow the current DCAM guidance to identify


                                         6
                          Audit Services in Support of Field Pricing Requests


requestor needs and to recommend that COs accept telephone rate confirmations
when the risk of improper pricing is low. Without knowledge of existing, useful
information, COs cannot properly tailor the scope of their requests for minimum
information as required in the FAR 15.805-5(a)( 1) provisions that were
applicable before October 10, 1997, or in the revised FAR 15.404-2(a)(l).

        Auditor Use of Rate Confirmation Procedures. Some DCAA auditors
agreed t!lat they could have used rate confirmation procedures instead of audit
procedures for the judgmentally selected reviews because pricing information
was readily available. Although most auditors claimed that audits were
necessary, DCAA working papers did not substantiate the auditors’ claims. The
auditors usually did not perform any other substantive procedures beyond
verifying rates to information previously audited or readily available in the
accounting (payroll) records. Auditors typically only verified rates to current
information because labor and indirect rates were already audited, or FPRAs
were available; few materials were involved; or auditors had on-line computer
access to payroll or purchasing information. All contractors had generally
adequate estimating systems, or a reported estimating system deficiency had no
direct bearing on the cost elements that required evaluation. Most low-risk
proposals excluded costs of materials, or the material costs were insignificant.
At the six audit offices cognizant of major contractors, auditors had easy access
to payroll information to verify proposed labor rates to actual rates. At the
branch office conducting mobile audits, auditors were able to receive facsimile
payroll information from contractors to verify labor rates and did not always
make field visits. One Navy CO showed that an auditor at the mobile FAO
insisted on a detailed audit of a small cost reimbursable change order proposal
when only a rate verification was requested.

Statistical Sample of Agreed-upon Procedures Reports. Using a stratified
sampling plan, we statistically selected 255 additional DCAA reports on the
application of agreed-upon procedures issued during FY 1996. Of the 255
sampled reviews, 129 were unnecessary because other audited data were readily
available. Of the 129 unnecessary pricing reviews, 89 left the method or extent
of audit to the auditor’s discretion. The requests for audit support usually asked
only for a verification or review of rates and factors. Detailed information
regarding the statistical sample and results is presented in Appendix A.

Our examination of the reports showed that the reported results were based on
FPRAs, recent forward pricing rate reviews, or simple verifications of labor and
indirect expense rates and cost data. By examining the number and type of
proposal audits completed during FY 1996 and recorded in the DCAA Agency
Management Information System (AMIS), we also verified that considerable
audited cost history was available for the applicable contractors, and recent
forward pricing rate reviews had been performed for many contractors. More
than 100 separate proposal audits or agreed-upon procedures reviews were
performed at several of the contractors during FY 1996.

We projected the sample results to the universe of 4,051 agreed-upon
procedures reviews performed by DCAA in FY 1996. Our sampling results
showed that 2,105 is the best, unbiased estimate of unnecessary reviews.
Further, we estimated that 62,950 audit hours were expended on unneeded
audits during FY 1996. Using a standard staff year of 1,505 hours, we


                                     7
Audit Services in Support of Field Pricing Requests


      calculated that the unnecessary audit hours represented 42 staff years
      (62,950/1,505 = 41.82)) excluding supervisory hours. Using DCAA FY 1998
      reimbursable billing factors, we increased the 62,950 hours by a factor of 1.225
      to account for supervisory and administrative hours. The results were
      multiplied by the $69.19 hourly billing rate resulting in about $5.3 million in
      resources that could have been put to better use. We reduced the potential
      benefits by IO percent to account for the time required to perform the informal
      telephone rate checks. This resulted in an estimate of $4.8 million that could
      have been put to better use for the year [$5.3 million - (10%x5.3 million) =
      $4.8 million]. Appendix A contains the details of our statistical sample and
      projected results. The $4.8 million estimate applies to agreed-upon procedures
      reviews and excludes the cost impact of unnecessary FY 1996 audits that DCAA
      performed of low-risk proposals. The impact of the low-dollar audits could be
      significant.



Adequacy of Audit Guidance

      The DCAM is the field auditor’s primary source of guidance on processing and
      performing reviews to satisfy CO requests for field pricing support. The
      DCAM chapter g-100, “Administrative Procedures for Field Pricing Support,”
      and the DCAA FAO Management Information System (FMIS) User Manual,
      Appendix C, “Activity Code Definitions,” provide guidance on different
      methods for completing field pricing reviews. The methods available to
      evaluate low-risk proposals include desk audits, agreed-upon procedures, and
      telephone rate confirmations. To ensure the timeliness of the guidance, the
      DCAA should promptly update the DCAM when DOD regulatory changes are
      made. The audit guidance should also include clear criteria to assist auditors in
      selecting the most appropriate review method.

      Incorporation of Regulatory Guidance in DCAM. On April 15, 1996, the
      DCAA issued a Memorandum for Regional Directors (MRD) on “Audit
      Guidance on Changes to DFARS, ” 96-PAC-048. The MRD briefly alerted
      auditors of a variety of regulatory changes, including the change in the dollar
      threshold from $1 million to $10 million for requesting field pricing reviews for
      cost-type proposals. The higher threshold became effective November 30,
      1995. The DCAA did not incorporate the guidance in the DCAM until January
      1997, 13 months after the revised DFARS became effective.

      The DFARS change had a significant effect on the DCAA mission. The
      number of proposals falling under the new dollar threshold for required field
      pricing reviews was certain to increase, while the number of required price
      proposal audits would decrease. The DCAA should have issued a separate
      MRD explaining the preferred use of telephone rate confirmations or short
      memorandums instead of extensive written reports to ensure prompt and
      effective implementation of the regulatory change. The April 15, 1996, four-
      page MRD covers 15 regulatory changes. The significant threshold revision is
      mentioned only briefly and is easily overlooked. As a result, most of the



                                         8
                         Audit Services in Support of Field Pricing Requests


auditors and supervisors we interviewed were unaware of the increased
threshold until DCAA incorporated the MRD guidance in the January 1997
DCAM.

Differing Guidance on Telephone Rate Confirmations. In addition to the
DCAM, the DCAA FMIS User Manual, Appendix C, provides guidance on rate
confirmation procedures for low-risk audit requests. However, the FMIS
guidance differs from guidance in DCAM. The FMIS manual explains that
auditors should provide informal telephone rate confirmations in response to
oral requests for pricing information. Auditors interpret the FMIS to mean that
the nature of the request determines the type of audit effort to be expended.
The DCAM does not limit the form of response to the form of the request. The
DCAM 9-107, “Written and Telephone Requests for Specific Cost Information
on Price Proposals, ” allows for the transmittal of specific cost information by
telephone based on either a written or oral request. In practice, auditors
followed the FMIS guidance and typically provided telephone rate confirmations
only when they received oral pricing requests. Regardless of the dollar amounts
proposed or level of risk involved, auditors responded to written requests for
rate confirmations with long, written reports, supported by assignment folders
containing numerous administrative forms and working papers.

The DCAM provides a sample format for memorandum confirmation of specific
cost information on price proposals. Because most FAOs followed the FMIS
guidance, the FAOs used a one-page memorandum only when they received
oral requests for rate confirmation.

Guidance on Low-Risk Field Pricing Methods. Various procedures for
completing and responding to a low-risk field pricing request are provided in
DCAM 9- 103.3, “Audit Scope, ” DCAM 9-107, “Written and Telephone
Requests for Specific Cost Information on Price Proposals,” and DCAM 9-108,
“Review of a Part of a Price Proposal - Agreed-upon Procedures, Specified
Cost Element Reviews. n The procedures include a desk audit, agreed-upon
procedures, and telephone rate confirmations. However, the DCAM guidance
is inadequate for auditors to determine the circumstances under which those
procedures should be used. Consequently, when determining whether to
respond to a requestor orally or with a written report, auditors relied on the
form of request, oral or written. Although the DCAM elaborates on the
differences between desk audits and the processing of requests for specific
information, the differences were not discernible. Review procedures in the 58
unnecessary audit files in our judgment sample were primarily limited to the
verification of proposed rates and costs to information already available to the
auditors. Yet, the auditors prepared a complete working paper file and a formal
report on each request. In contrast, a telephone rate confirmation would require
only a confirmation memorandum. The principal difference between methods is
the significant amount of working papers, administrative forms, and forma1
reports associated with agreed-upon procedures and desk audits compared to the
simple confirmation forms used to provide telephone rate confirmations.

The DCAM states that auditors should use their professional judgment in
assessing materiality and risk to determine whether sufficient information is
available to justify a desk review. However, the DCAM contains no guidance
on when to use the less expensive and more efficient telephone or memorandum


                                    9
Audit Services in Support of Field Pricing Requests


      procedures for confirming pricing information. Because desk audits are
      generally interpreted to require an audit opinion, they expend audit resources
      unnecessarily when information is already available.

      Guidance for Administrative Contracting Officers. The lack of specific
      guidance for ACOs also contributed to the performance of unnecessary field
      pricing reviews. The AC0 plays a key role in coordinating a CO request for
      audit support with DCAA. ACOs located at prime contractor facilities seldom
      coordinated the requests with auditors or with the requestor to explain the
      information already available. No specific DCMC guidance requires ACOs to
      suggest to prime contractors that telephone rate confirmations would satisfy
      their needs. The Navy Acquisition Policy Supplement used by the Supervisor
      of Shipbuilding, Conversion, and Repair (SUPSHIP) only briefly mentions that
      ACOs should coordinate audit requests. The DCMC is in the process of issuing
      instructions for ACOs to coordinate requests and to accept telephone rate
      confirmations when current information is available. We believe the planned
      DCMC corrective action will preclude requests for redundant audits. At the
      time of our draft report, the Naval Sea Systems Command (NAVSEA) guidance
      had not been changed to reflect the FAR changes on field pricing assistance and
      to encourage the use of telephone procedures. NAVSEA management asked
      that our report include a recommendation on the required improvement.



Summary

      Overall, the DCAA and the Navy have not fully implemented guidance to
      comply with regulatory changes and the DOD procurement process reform
      initiative designed to eliminate unnecessary field pricing reviews. DOD
      management addressed its concerns regarding unnecessary oversight of price
      proposals in the DOD “Final Report of the Procurement Process Reform Process
      Action Team,” January 1995. Although changes to DFARS, effective
      November 30, 1995, raised the threshold for required field pricing to reduce
      unnecessary reviews, the DCAA did not issue adequate and timely guidance to
      implement those changes. As a result, about 42 staff years have been expended
      unnecessarily and detailed reviews of low-risk price proposals are still being
      performed.

      Auditors have readily available pricing information as a result of recently
      performed audits and are, therefore, able to advise COs on how their
      information needs may best be met without excessive review procedures or
      reports. Although auditors must meet the needs of the requestor, they are also
      responsible for the scope of review required to meet the requestor’s needs. If a
      CO needs written confirmation of pricing information that is readily available
      without additional audit procedures, auditors should inquire whether an oral
      confirmation of specific cost information is sufficient or whether a report on
      information already available elsewhere is necessary.

      We do not believe the revised FAR part 15 will adequately correct conditions
      we observed in this evaluation and discussed in our previous report on DOD


                                        10
                              Audit Services in Support of Field Pricing Requests


    Requests for Field Pricing Audit Support,” Report No. PO 97-058,
    September 30, 1997. (See Appendix B for additional information.) We are
    concerned with the inadequate implementation of DFARS changes designed to
    eliminate unnecessary field pricing reviews and believe the DCAA and Navy
    must take further action to properly implement the recent revisions to FAR part
    15 and provide more specific guidance to its field pricing and contract
    administration personnel.



Management Comments on the Finding and Evaluation
Response

    The DCAA provided comprehensive comments on the finding.          For the full text
    of management comments, see Part III.

    DCAA Comments on the Finding. DCAA partially agreed that many of the
    audits and agreed-upon procedure reviews evaluated during field visits were
    unnecessary. However, DCAA disagreed that the agreed-upon procedure
    reviews evaluated in our statistical sample were unnecessary and asked field
    audit offices (FAOs) to respond. The FAOs accepted only 14 of the 140 reports
    identified in the statistical sample review as unnecessary.

    DCAA provided a list of explanations to explain why telephone rate procedures
    were not used for the assignments evaluated during our field visits. Requestors
    sometimes insisted on a formal report or the request covered more than could be
    furnished by rate verification. Other reasons included: lack of available
    information on file; need to verify proposed costs to actual cost records, for
    example payroll; and the need to perform analytical procedures, such as
    application of escalation rates to base labor rates.

    Management also commented that some of the 10 subcontracts evaluated during
    field visits may not have been below the DFARs dollar threshold for field
    pricing. Management also stated that we overestimated the cost impact of
    $5.7 million for audit resources that could be put to better use by not accounting
    for the resources required for telephone rate verifications.

    Evaluation Response. Management did not comment on the causes we
    identified for the unnecessary reviews. Auditors did not consider recently
    audited pricing data or use information readily available in the accounting
    records. Instead, the DCAA management relied on FAO responses that did not
    adequately address our report findings. The FAOs did not explain why they
    performed comprehensive reviews on low dollar proposals and did not furnish
    adequate documentary support for their nonconcurrences.

    We visited DCAA Headquarters to examine any documentation supporting FAO
    rebuttals. Although the documentation was inadequate to alter our overall
    assessment, and none of the judgmental sample items required revision, we
    revised the rating for 11 of the 140 unnecessary reports in the statistical sample.
    We adjusted the Evaluation Results section of our report to reduce the number


                                        11
Audit Services in Support of Field Pricing Requests


      of unnecessary reviews identified in our sample to 129 from 140. We also
      reprojected the results of our statistical sample to reflect the 129 unnecessary
      reviews and we recomputed the amount associated with resources that could be
      put to better use.

      Management’s explanation for the unnecessary reviews was that most of the
      requests for audit support required auditors to perform procedures more
      extensive than those for telephone rate verifications. However, the DCAM does
      not limit the review procedures that can be performed for telephone rate
      verifications. Also, FAO responses to Headquarters stated that DCAA
      performed formal reviews because formal written requests were received. That
      was one of the most common explanations and, in some cases, the only
      explanation FAOs gave for why a review was performed.

      The DCAA response indicated that they offered to provide telephone rate
      responses but the requestor wanted a report. The Contract Audit Manual
      specifies that the auditor determines the scope of audit necessary to perform the
      review. When readily identified information is available to evaluate a proposal,
      a telephone rate review should be acceptable. As an independent audit
      organization, DCAA should not waste resources performing unnecessary
      reviews where adequate data are available. DCAA has instituted numerous risk
      based initiatives because of resource reductions. Yet we found DCAA wasting
      resources by performing a full audit even when adequate information was
      available to be provided as a simple rate request, solely because the requestor
      wanted an audit report. Auditors are expected to exercise independent judgment
      in planning the type and extent of audit testing sufficient to render unqualified
      audit opinions, but they will consider and address special areas of concern or
      informational needs of requestors. However, it is important that DCAA apply
      its resources in the most economical and efficient manner by using telephone
      verifications, when current data is available.

      Based on DCAA comments, we have adjusted our cost impact by 10 percent to
      account for the additional time necessary to perform the rate request.



Recommendations, Management Comments, and Evaluation
Response

      Revised Recommendation. As a result of management comments, we revised
      draft Recommendation 1.c. to clarify the intent of the recommendation.

      1. We recommend that the Director, Defense Contract Audit Agency,
      amend Defense Contract Audit Manual, chapter 9 guidance to:

      a. Implement the revised Federal Acquisition Regulation 15.404-2(b)(l)(i),
      which states, “Whenever circumstances permit, the contracting officer and
      field pricing.experts are encouraged to use telephonic and or electronic
      means to request and transmit pricing information.” Emphasize that



                                        12
                          Audit Services in Support of Field Pricing Requests


auditors should use telephone rate confirmation procedures to the
maximum extent possible when pricing information is readily available.

DCAA Comments. Management partially concurred. Although DCAM
already meets the intent of the FAR to provide telephone rate verifications
where possible, DCAA agreed to add the guidance in the revised FAR 15.404-
2(b)(l)(i) to DCAM. DCAA will also issue a MRD on the need to document
communications with customers prior to starting audits and to address the
treatment of proposals under the FARDFARS dollar thresholds. The MRD
will be issued within 60 days of the receipt of the final IG report.

b. Clarify the methods to use for low-risk proposals, telephone rate
confirmations, agreed-upon procedures reviews, and desk audits by
establishing specific criteria for the use of each method for completing field
pricing. Based on the usefulness of information readily available, instruct
auditors to provide telephone rate confirmations as the preferred method.

DCAA Comments. Management partially concurred. Although the DCAM
already includes adequate guidance to determine the circumstances in which to
use telephone procedures, desk reviews, or agreed-upon procedure evaluations,
management agreed that its presentation may be improved. DCAA will
consolidate information on the different types of evaluations in one location and
will define each type of service, reference where in DCAM more
comprehensive guidance is located, and summarize the important aspects of the
audit/evaluation/specific information. Management will issue an MRD advising
the Regions of the DCAM revision within 60 days of the receipt of the final IG
report. The response to Recommendation 1.a. addresses telephone rate
confirmations.

Evaluation Response. The proposed actions are responsive to the
recommendation. Although the management response to Recommendation 1. a.
does not specifically address telephone rate confirmations, the planned MRD
will address the FAR requirement to provide minimum essential services. The
transmittal of information telephonically or through electronic means serve that
purpose.

    c. Amend the Defense Contract Audit Manual, section 9-103.ld.(3), to
include the higher tier requestor among those that the auditor should
discuss field pricing requests with. Guidance should state that auditors
should discuss field pricing requests with the initiating requestor who may
be a prime contractor or higher-tier subcontractor, in addition to a
contracting officer or an administrative contracting officer.

DCAA Comments. Management nonconcurs because auditors cognizant of
subcontractors should not be required to contact every contractor to discuss
requests for services. Contracting officers and ACOs are already interfacing
with the contractor to determine whether providing assistance is in the
Government’s interests. DCAM requires the auditor at the higher-tier
contractor level to be satisfied that the audit/evaluation of the subcontractor be
in the Government’s interests and to coordinate on the appropriateness of the




                                     13
Audit Services in Support of Field Pricing Requests


      request with the contracting officer or the ACO. Auditors at the subcontractor
      level do not have the visibility needed to determine whether assisting the
      contractor is in the best interest of the Government.

      Evaluation Response. Although management comments were not responsive,
      we have clarified the recommendation because of DCAA comments. We have
      revised the recommendation to eliminate contacting the contractor. This
      appears to confuse the intent of our recommendation, The objective of our
      recommendation is for the lower level auditor to convey to the requestor that
      current data is available that would satisfy the request without a formal audit
      being performed. A significant number (61 of 129) of unnecessary reviews
      were for subcontract proposals. DCAA comments misinterpret the purpose of
      field pricing assistance and the objectives of our evaluation. DCAA
      disagreement centered on requiring the auditor to contact the contractor. The
      intent of the recommendation is to ensure that field pricing is completed in the
      most economical and efficient manner, with elimination of unnecessary formal
      field pricing reports. To accomplish the objective, the subcontract auditor must
      advise the requestor of a full audit when a review is unnecessary because the
      subcontract pricing information is readily available. FAR 15.404-2 encourages
      these communications and acquisition reform encourages avoiding unnecessary
      audits. We have revised the recommendation to clarify its intent.

       We request that DCAA reconsider its response in comments to the final report.

       2. We recommend that the Director, Defense Contract Audit Agency revise
       guidance in the Field Audit Office Management Information System User
       Manual on the use of rate confirmations to avoid interpretations that
       telephone rate confirmations should only be used to respond to an oral
       request. That guidance should be consistent with the guidance in the
       Contract Audit Manual.

       DCAA Comments. Management concurred with the recommendation and will
       clarify the FMIS user guidance. An MRD advising the Regions of the FMIS
       revision, will be issued within 60 days of the receipt of the final IG report.

       3. We recommend that the Commander, Naval Sea Systems Command,
       issue guidance for prompt implementation of Federal Acquisition
       Regulation 15.404-2(a) and (b) on field pricing assistance and the reporting
       of field pricing information. The guidance should emphasize the use of
       telephone rate confirmations to request and transmit information on low-
       risk proposals and should encourage early communication with cognizant
       auditors regarding field pricing requests.

       NAVSEA Comments. NAVSEA concurred with the recommendation and
       already issued guidance to the field to encourage early communications with
       auditors and to allow use of telephone rate verifications when pricing
       information is available.




                                        14
Part II - Additional Information
Appendix A. Evaluation Process

Scope

    Our evaluation covered DCAA audits and reviews performed in response to
    DOD and non-DOD requests for field pricing. We visited seven DCAA FAOs
    where we evaluated a judgment sample of reviews and internal control
    procedures for processing field pricing requests. We also reviewed a statistical
    sample of 255 DCAA reports on the application of agreed-upon procedures. In
    addition, we visited four military procurement activities to follow up on the
    requests associated with 20 of the judgmentally selected DCAA reviews.

    To determine the reasonableness of DCAA review procedures used to respond
    to requests for field pricing reviews evaluated, we considered the following:

               Government agreements on forward pricing rates, audit reports on
               forward pricing rates, and documentation in field pricing reports;

               audit accessibility to payroll, purchasing, and job cost ledgers and the
               availability of information in other, recently completed, audit files;

               the availability to auditors and price analysts of on-line computer
               access to contractor pricing information for easy updating of rate
               information and confirmation of proposed rates; and

               reports on estimating system surveys and AC0 determinations on the
               adequacy of contractor estimating systems.

    To determine the reasonableness and necessity of review procedures described
    in the statistically selected reports, we considered information discussed in the
    reports on FPRAs, audited forward pricing rates, labor agreements, and other
    documentation that indicated whether sufficient data existed without the need for
    additional audit procedures. We also reviewed the DCAA AMIS to identify
    other recent audits and forward pricing reviews that should have yielded labor
    and indirect rate information precluding the need for additional reviews.

    DOD-wide Corporate       Level Government Performance and Results Act
    (GPRA). In response      to the GPRA, the Department of Defense has established
    6 DOD-wide corporate     level performance objectives and 14 goals for meeting
    these objectives. This   report pertains to achievement of the following objectives
    and goals.
           l   Objective: Fundamentally reengineer the Department and achieve a
               2 1st century infrastructure. Goal: Reduce costs while maintaining
               required military capabilities across all DOD mission areas. (DOD-~)




                                          16
                                                  Annendix A. Evaluation Process


    DOD Functional Area Reform Goals. Most major DOD functional areas have
    also established performance improvement reform obiectives and goals. This
    report pertains to achievement of the following functional area obgctives and
    goals.

           Objective: Internal Reinvention. Goal. Minimize cost growth in
           major defense acquisition programs to no greater than 1 percent
           annually. (ACQ-3.4)

    General Accounting Office High Risk Area. The General Accounting Office
    has identified several high risk areas in the DOD. This report provides coverage
    of the Defense Contract Management high risk area.



Methodology

    Use of Computer-Processed Data. We relied on computer-processed data
    from the DCAA AMIS to select audit offices to visit and assignments to review.
    Although we did not perform a formal reliability assessment of the computer-
    processed data, we determined that the assignment numbers, dollars examined,
    and questioned costs for the selected audit assignments generally agreed with the
    information in the computer-processed data. We did not find errors that would
    preclude use of the computer-processed data to meet the evaluation objectives or
    that would change our report conclusions.

    Evaluation Universe. We used the AMIS to identify field audit offices issuing
    field pricing reports from October 1, 1995, through September 30, 1996. We
    also used information in the Washington Headquarters Services publication,
    “ 100 Companies Receiving the Largest Dollar Value of Prime Contract Awards,
    FY 1996” to identify large contractors and major weapons programs.

    We visited seven DCAA field offices, six contract administration offices, and
    four military procurement offices. We reviewed 85 judgmentally selected
    DCAA field pricing reviews and 255 statistically selected audit reports on
    limited field pricing review procedures.



Sampling Procedures

    Judgment Sample. We judgmentally selected six DCAA field offices
    cognizant of major contractors and associated contract administration offices
    located in each of the five DCAA regions. Each office had a high volume of
    price proposal audit reports issued during FY 1996. The six offices at major
    contractor locations audited major weapons systems representing the Army, the
    Navy, and the Air Force. We also evaluated some small contractors at one
    DCAA branch office. At the 7 DCAA offices, we judgmentally selected 85
    audits or agreed-upon procedures reviews of primarily low-dollar (below


                                        17
Appendix A. Evaluation Process


      $10 million) proposals with few or no dollars questioned as a result of the field
      pricing reviews. The 85 field pricing reviews covered price proposals ranging
      in value from $14,000 to $440 million, and 10 of the 85 field pricing reviews
      represented agreed-upon procedures reviews of the cost realism.

      We selected four military procurement offices to visit based on the volume of
      audit requests issued to the DCAA locations. During visits to the 4 offices, we
      followed up on 20 of the 85 field pricing reviews evaluated at DCAA. We
      reviewed the files of the COs and price analysts who initiated the requests.

      Because the audit assignments were judgmentally selected, we are not projecting
      the results of our evaluation of those assignments on a DCAA-wide basis.

      Statistical Sample. We developed a stratified statistical sample of 255 audit
      reports issued under DCAA activity code 280, agreed-upon procedures reviews.
      The objective was to estimate the number of unnecessary code 280 reports and
      the number of corresponding hours spent on those reports. The universe
      consisted of the total number of reports issued during FY 1996 in each of the
      five DCAA regions. We employed the stratified sampling plan as the sampling
      design for this audit. We used the five regions as the five strata and randomly
      selected the sample of reports from each of these regions as shown below.



                         Table A-l. Universe and Sample Size of
                   Agreed-upon Procedures Reviews and Sample Results

                                                                    Unnecessary
          Repion              Universe Size       Samole Size         Renorts

          Eastern                  1,026               55                 28
          North Eastern              445               45
          Mid-Atlantic             1,082                                 :;
          Western                    797              G                  34
          Central                    701             50                 18
             Totals                4,051              255                129



      Statistical Results. Using the sample results, we calculated the statistical
      projections for the number of unnecessary DCAA agreed-upon procedures
      reviews over the FY 1996 universe. We also calculated the statistical
      projections for the number of hours spent in FY 1996 on the unnecessary
      reviews. The projected results are shown below.




                                           18
                                              Appendix A. Evaluation Process


              Table A-2. Projected Statistical Sample Results
                     Agreed-upon Procedures Reviews

                Attributes (Number of Unnecessary Reviews)

                             Lower               Point            Upper
                             Bound              Estimate          Bound


       Eastern
       Northeastern             381
                                113                522
                                                   178               !Z
       Mid-Atlantic             462                611               758
       Western                  434                542               650
       Central                  155                252               350

          Total DCAA          1,861              2,105             2,348



For mathematical reasons, regional upper and lower bounds do not sum to
upper and lower bounds of the total.

                           Variables (Hours Spent)

                             Lower               Point            Upper
                             Bound              Estimate          Bound

          Total DCAA         54,337             62,950            71,562



We are 95-percent confident that between 1,861 and 2,348 agreed-upon
procedure reviews performed during FY 1996 were unnecessary and that 2,105
is the best unbiased point estimate for the number of unnecessary reports. We
are also 95-percent confident that between 54,337 and 71,562 hours, exclusive
of supervisory hours, were spent on the unnecessary reviews, and that 62,950 is
the best unbiased point estimate for the hours spent on unnecessary reports
issued in FY 1996 under activity code 280, application of agreed-upon
procedures.

Use of Technical Assistance. The Analysis Planning and Technical Support
Directorate, Office of the Assistant Inspector General, for Auditing, DOD,
prepared the statistical sample for the evaluation of the agreed-upon procedures
reviews and projected the sample results.

Contacts During the Evaluation. We visited or contacted individuals and
organizations within the DOD. We also spoke to representatives of four
Government contractors. Further details are available upon request.




                                      19
Appendix B. Summary of Prior Coverage
   During the last 5 years, the Office of the Inspector General, DOD, issued three
   reports related to requesting and completing cost and price analyses for
   contractor price proposals.

   Audit Report No. PO 97-058, “DOD Requests for Field Pricing Audit
   Support, September 30, 1997.” The report concludes that audit requests and
   the scope of requested services were appropriate for large proposals when cost
   or pricing data were required. However, 54 of 83 field pricing requests of cost
   or pricing data were unnecessary because pricing information was already
   available. Also, 8 of 10 formal field pricing requests for cost realism reviews
   of rates were unnecessary because FPRAs or audited rates were already
   available. The Military Departments used different methods for evaluating cost
   realism, and the Air Force was most likely to use alternative methods and rate
   confirmation procedures over formal audit requests when information was
   available. The Under Secretary of Defense for Acquisition and Technology
   agreed that training is necessary to implement the revised FAR part 15
   provisions on the need to identify existing information and to use telephone rate
   confirmation procedures when the risk of faulty pricing is low. The Under
   Secretary also advised that guidance was being prepared for incorporation in the
   Contracting Pricing Reference Guides to document pricing information
   frequently available at cognizant audit offices, informal procedures acceptable
   for meeting pricing requirements for low-risk proposals, and common guidance
   on performing cost realism.

   Audit Report No. 97-207, “Contracting Officer Price Analysis,” August 26,
   1997. The report concludes that Government resources were not used
   economically when COs requested DCAA audits and reviews on contractor
   price proposals under $500,000. The report recommended that the Army,
   Navy, Air Force, and Defense Logistics Agency issue guidance reminding COs
   to use a price analysis instead of a cost analysis to evaluate contractor proposal
   prices under $500,000 except in the limited circumstances cited in FAR subpart
   15.8. The Services and Defense Logistics Agency agreed to reemphasize policy
   and regulatory requirements on the use of a price analysis on proposals up to
   $500,000. The report followed up on recommendations made in Report No.
   94-004, which noted similar conditions.

   Audit Report No. 94-004, “Contracting Officer Price Analyses,”
   October 15, 1993. The report states that contracting organizations did not
   properly perform or adequately document the use of price analyses for proposals
   under $500,000 to determine whether contract proposal prices were fair and
   reasonable. The report also states that Government resources were not used
   economically when a cost analysis was used instead of a price analysis for
   proposals under $500,000. The conditions occurred because contracting
   organizations inappropriately relied on cost analysis, did not use various price
   analysis available, and did not comply with regulations covering the proposal
   evaluation process. The report recommended that the Army, Navy, Air Force,
   and Defense Logistics Agency issue internal control objectives and confirmation
   techniques to require that contracting officers perform price analyses and use


                                       20
                                     Appendix B. Summary of Prior Coverage


independent Government cost estimates or other price analysis techniques
detailed in the Armed Services Pricing Manual, and as required by FAR
15.805, to evaluate price proposals. The Air Force and Defense Logistics
Agency agreed to implement regulations and took corrective action. The Navy
agreed to revise the Naval Acquisition Procedures Supplement. The Army
believed that its guidance on using a price analysis instead of a cost analysis was
adequate.




                                    21
Appendix C. Summary of Evaluation Results by
Contract Type
              Field Pricing Reviews of Contractor Price Proposals

                             DCAA Reviews                  Average Dollar Values
                          Unnecessarv Necessarv            Unnecessary   Necessarv

Judgment Sample:
  Noncompetitive
      Cost Type               33                12        $ 2,715,637      $ 20,394,919
      Fixed Price             17                13             656,059       21,557,446

   Competitive ’
      Cost Realism:
                              8                             12,559,162      220,403,556
               Total          58

Statistical Sample:*
   Noncompetitive                 94         97              6,322,440      10,982,483
   Competitive                               29              8,636,591      49,596,077
               Total          1;;            126




‘Most proposals included a mix of fixed-price, fixed-price incentive, and cost-type line
items. However, the fixed-price incentive contract line item was the most dominant.

*The statistical sample included proposals for fixed-price, fixed-price incentive, cost-
type, time and materials, and indefinite quantity labor hour contracts. The cost-type,
time and materials, and indefinite quantity labor hour were the most dominant contract
types identified in the sample.




                                           22
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Deputy Under Secretary of Defense (Acquisition Reform)
   Director, Defense Procurement
   Director, Defense Logistics Studies Information Center
Under Secretary of Defense (Comptroller)
Assistant Secretary of Defense (Public Affairs)


Department of the Army

Assistant Secretary of the Army (Financial Management and Comptroller)
Assistant Secretary of the Army (Research, Development, and Acquisition)
Auditor General, Department of the Army


Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Auditor General, Department of the Navy
Commander, Naval Sea Systems Command


Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force


Other Defense Organizations
Director, Defense Contract Audit Agency
Commander, Defense Contract Management Command




                                          23
Appendix D. Report Distribution




Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Technical Information Center, National Security and International Affairs Division,
 General Accounting Office

Chairman and ranking minority member of each of the following congressional
  committees and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Government Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal
     Justice, Committee on Govemmant Reform and Oversight
  House Committee on National Security




                                         24
Part III - Management Comments
Assistant Secretary of the Navy (Research,
Development, and Acquisition) Comments

                                 OEPARTYENTOFTHE MAW
                               omcaw l+mAssmllwl
                                               ¶KsETMv
                              wfAmxoNpopynTuoAcuBmon
                                     loo0NAWPENTAGON
                                   wAwNGloy DCam5blo8l

                                       WAY   51958


          MEMORANDUM
                 FORTHECEPARTMENT
                               OF DEFENSE
                                        ASSISTANT
                                                INSPECTOR
                        GENERAL
                              PGRAUDITING

          SUBJECT
                : Draft Report on Defense Contract Audit Agency
                  Reviews of Price Proposals, Project No. 6DC-0066.
                  - INFORMATION MEHORANDUH

          REF: !a/       CODIGMemoof 12 Jan 98

          ENCLOSURE:Ill        DONResponse to DODIG
                                                  Audit Report, Project
                               No. 6OC-0086.1

                   This memorandumis in response to the draft     audit
          report     forwarded by reference (a].

                The Department of the Navy response is Enclosure (11.
          The Commander, Naval Sea Systems Command,has implemented
          the recommendation and issued guidance for prompt
          implementation of Federal Acquisition Regulation 15.404-2(a)
          and (b) on field pricing assistance and the reporting of
          field pricing information.




                                      f.ici!&Principal   Deputy



          copy to:
          NAVINSGEN(2)
          EMO-31
          COMNAVSEA(OON3)




                                     26
Assistant Secretary of the Navy (Research, Development, and Acquisition)
                                                             Comments




                      Department of the Navy Response
                                      to
                    DODIG Draft Report of 12 January 1998
                                      on
                       Defense Contract Audit Agency
                         Reviews of Price Proposals
                           Project No. 6OC-0086.1


       Recommendation 3: We recommend that the Commander, Naval
       Sea Systems Command, issue guidance for prompt
       implementation    of Federal Acquisition   Regulation    15.404-2(a)
       and (b) on field pricing     information.   The guidance should
       emphasize the use of telephone rate confirmations         to request
       and transmit information    on low-risk   proposals   and should
       encourage early communication with cognizant        auditors
       regarding   field  pricing requests.

       DON Position:     Concur.   NAVSEAissued memorandum Ser 02C-
       RW/8 of 11 February 1998 to NAVSEAheadquarters       and field
       personnel   to remind them to consider using informal
       procedures,    such as telephone cost or rate verifications,
       and to establish    early communication with cognizant    auditors
       regarding   field pricing   requests.  Action is complete.




                                                              Enclosure   ( 1)




                                         27
Defense Contract Audit Agency Comments




              PFC 225.4                                                                  31 March 1998

              MEMORANDUM         FOR DEPUTY ASSISTANT MSPECTOR                GENERAL, AUDIT POLICY
                                        AND OVERSIGHT

              SUBJECTS       Response to DoDIG Draft Evaluation Report on Defense Contract Audit Agency
                             Reviews of Price Proposals (Project No. 6OC-CQ6.1)

                    We have reviewed the subject draft report and our comments relative to the findings and
              recommendations are as follows:

              Finding: O/the 85proposal auo%s andagreed-upon procedures reviews ewduated duringfield
              visitsperformed at 7 DCXA FAOs. 58 (68 percent) were unnecesxvy. Fonydne (71 percent) of
              the 5g were below the applicobfe FAR 15.805-S and DFART 2 I5.805-5 threshol&for pm$mning
              aqjefr[dpricing review. Auditors expen&d unneeded eflort preparing working pqoers md
              wntten reporfs on rnjormarion fhat was already available as a result of other, recentfy completed
              audits.

              DCAA Rupome:               We Partially concur with this finding. Of the 85 assignments evaluated
              during field visits, it is our opinion that 21(25 percent of 85) could have been performed as
              requests for specific cost information. Field Audit Of&es (FAOs) reported that the other 37
              assignments (46 percent of the 85) required evaluation procedures greater than a provision of
              specilic cost information The breakout of the evaluations classit%d as urmecusaty by region is as
              follows.




                       FAOs determined that it was appropriate to provide more than specific   cost
               infotmation for the following reasons




*Original management comments were marked “For Official Use Only.” On April 14, 1998,
DCAA agreed to the removal of the “For Official Use Only” marking from this response to the
draft report in order to include it in our final report.

                                                     28
                                       Defense Contract Audit Agency Comments




PFC 225.4
SUBJECT.       Response to DoDIG Draft Evaluation Report on Defense Contract Audit Agency
               Reviews of Price Proposals (Project No. 6OC-0086.1)




       Contacted requester and offered to provide a telephone rate response (25000).
       Requester wanted a report.
       Request is for more than verification of rates, for example, CASRAR compliance,
       system status, ODC review, fringe benefit basis, analysis of proposed cost basis,
       review of material cost, etc.
       Cost Realism evaluation was coordinated with Headquarters.
       Information not readily available in file-sto perform as a request of specific cost
       information.
       Verification tests beyond providing specific cost information provided.
       Performed for a contracting officer with no knowledge of the contractor.
       AnalyticaJ procedures required, e.g., format subcontract costs when detail not
       releasable to prime.

        Forty-one assignments were classified by the DoDIG as being under the
FAWDFARS threshold for requesting held pricing Of those assignments, we believe that
the proposals identified with the following assignments are over the threshold as follows.

       l    1621-96H2lOOOOOS(Observation No. 4) is a firm-fixed price proposal for
            $840,830.
       l    1621-96H27000023 (Obsavation No. 41) is a firm-fixed price subcontract
            proposal for approximately S676,OOO.
       l    3131-96B21000013(ObservationNo.8)isaproposa)forappro~cimatelyS13
            million. (The FAO visited by the IG was only rquested to review
            approximately $3 million.)

        In addition, proposals for 10 of the assignments were for subcontractor effort.
Determination as to whether a proposal meets the FAR/DFARS threshold test is applied at
the prime contractor proposal level, not at the subcontract level. The FAR 15.805-S(b)
regulatory language in effkct during the period of the field visits addresses proposed
contracts or modiications, not subcontract proposals. Therefore, the proposal value of
the associated prime level proposalsshould be verified before suggesting that field pricing
support was provided for these proposalscontmy to the regulations.

        While wz do not agree on the number of reviews that should be considered
um~ecessary,we do agree that 21 of the 58 assignmentsjudgmentally selected for
evaluation should have been accomplished by providing specific cost information. To
reinforce guidance in responding to customer requests for forward pricing services, we
will issue a Memorandum for Regional Directors as described in responseto
Recommendation 1.a.




                                             29
Defense Contract Audit Agency Comments




           PFC 225 4
           SUBJECT:            Response to DoDlG Draft Evaluation Report on Defense Contract Audit Agency
                               Reviews oftice Proposals (Project No. 6CK-0086. I)

           Finding: Ging a srrarified samplingpkm, we statisi~c4~ selectid 255 oddiriotml LXAA
           repotis on the appiicalion of agreed upon procedures issued during FY 1996. Ofthe 255
           sampled reviews, 110 wre unnecessary because other m&ted data were readily amilable. Of
           /he 140 unnecessmy@%g        reviews, 100 I@ the method or extent of oudir to the ouo?ror :T
           drscrerron. ~?MTrequestsfor audrr support usually asked onlyfor a vertfrcalton or review of rares
           andjaciors.

                    Oflr exmninafion ofthe reporis showed that the reported results were bed on FPRAs,
            recent forward pricing mte reviews, OT simple verijicaknu o/k&r     and indirect expense rates
            and cost &a.    By examirung the member and type of proposal audits completed during FY I996
            cmd recorded in the DCAA Agency Mmagemenl Informalion System (AMIS), we also wrlfied
            thar comiderable audited cost his&y WPF rrvcrilablejw the applicable contracrors, and recent
           forwardpricing    rate reviews had been performedfor many contraclors. More rhar 100 separate
           proposal au&s or agreed-upon procedures reviews were perjormed at several oj the contractors
            &ring FY 1996.

           DCAA Response: We nonwncur with this finding. Of the 140 evaluations classified as
           unnecessary, it is our opinion that 126 were necessary and only 14 were unnecessary. The
           breakout of the evaluations by region is as follows

                                             Evaluations         DODIG             DCAA
                       Rtgion                 Examined         Unnecessary       Unnecessary




                                         I                 I                 I
                       Toial                     255       I        140      I        I4

                  FAOs determined that it was appropriate to respond to these requestsas applications of
           agreed-upon proceduresfor runs     including:

                   l    Little or no information in FAO files (including other assignments).
                   l    Not all information requested was in the FAO files.
                   l    Information at the FAO was not current.
                   l    Evaluation tests were required beyond use of available data in files.
                   l    Petformance of analytical techniques required.
                   l    Inadequate internal controls.
                   .    Contad was made with the requestor who cor&rrned evaluation request.




                                                               3




                                                               30
                                      Defense Contract Audit Agency Comments



                                                                                                        Final Report
                                                                                                          Reference



PFC 225.4
SUBJECT:        Responseto DoDIG Draft Evaluation Report on Defense Contract Audit Agency
                Reviews of Price Proposals(Project No. 60C-O086.1)

       Documentationthat we gatheredto support the need for each application of
agreed-uponproceduresis by individualassignment. This supportingdocumentationis
voluminousand is availableat our Headquarterslocation for your review

        Appendix A, Evaluation Process,explainsthat statisticalprojections were
calculated for the number of unnecessaryagreed-uponprocedure rcporu over the FY
 1996 universe and on the number of hours spent in FY 1996 on the u~ecessary     reviews.
This resulted in an estimatethat 55.7 million in resourcescould be saved. From the write-
up in Appendix A, it appearsthat the DoDIG is assumingthat no hours would be required                   Revised
to respondto a request for scrvic-csif an agreed-uponprocedure evaluation is not                        Page 8
conducted. We do not agree that this is a correct assumption. In these circumstances,
DCAA has received a requestto provide financial advisory assistance,and will provide
some level of support to the contractingofficer. Therefore, the calculation of unnecessary
hours should be adjusteddownward for the hours neededto assistthe customer. Because
of the overstatementof unnecessaryreports and the understatementof hours required to
provide even rate verifications,we believe that the projected savingsof S5.7 million is
greatly overstated.

Recommendation       1. We recommendrhar the Director. Defenre Confracf Audit Agency, amend
Bjense    Contraci Audtt Mamtal,cinzpter 9 guraknce IO:


         a. Implement the revised Federal Acquisition Regulation 15.404-Z(a)(l)(l).   which states.
“whenever circumstances permit, the contracting officer andfleidpricing experts are
encouraged to use telephonic md or electrontc mearu to request and transmit pricing
informalron. ” Emphasize what auditors should use telephone rate      conjirmationprocedures   to the
maximum extent possible when pricing idormation       is readily awxilable.


DCM     Response: Partially Concur. CAM al-        requires auditors to discussrequests for
serviceswith the contracting officer and to recommenduse of specific cost information techniques
(telephone rate rquests) v&m appropriate. This addressesthe intent of Federal Acquisition
Regulation (FAR) 15.404-2@)(l)(i). CAh4 9-103.1(d)(3) statesthat the auditor should be:

                Obtaining a clear understandingofthe rquester’s needs and
                identifying areas of the contractor’s proposal for special consideration
                (in addition to any specifiedby the PCO). Discussionswith the AC0
                an&or PCO, shouldbe held before beginningthe reviews. If the
                request is for an audit of somethingthat is immaterial or that could be
                handled u a requestfor specificcost information (see 9-107). the
                auditor should discussthis with and make an appropriate
                recommendationto the contractingofficer. However, the Iinal
                decisionregarding the need for a complete audit rests with the
                contracting officer.



                                               4




                                              31
Defense Contract Audit Agency Comments




           PFC 225.4
           SuElJECT~      Responseto DoDIG Draft Evaluation Report on Defense Contract Audit Agency
                          Reviews of Price Proposals (Project No. 6OC-0086.1)

                   We believe that CAM already meets the intent of the FAR and provides guidance
           to auditors to use requests for specific cost information where possible with customer
           concurrence; however. we will enhanceguidance in Chapter 9-100, Administrative
           Procedures for Field Pricing Support, to specifically retixence FAR 15.404-2(b)(l)(i)
           coverage. To reinforce guidance in responding to customer rquests for forward Pricing
           services. we will issue a Memorandum for Regional Directors, addressing.

                       The need to communicate with the.customer to gain a clear understanding of
                       the services required before sttiing the audit/evaluation.
                       The need to document conversations with the customer for audiulevauations,
                       even when conducted by the supervisor prior to setting up the assignment
                       The FAR requirement to provide minimum essentialservice
                       Treatment of proposals which are under the FARIDFARS thresholds.
                       Proper application of risk assessment,especially when dealing with lower value
                       proposals.

           Within 60 days of the receipt of the linal IG report, we will issue this Memorandum for Regional
           Directors which will also advise them ofthe CAM revision.

                  b. Clar~fvihe melho& fo use for low-riskpropasals, telephone rate conj+mations,
           agreed-upon procedures reviews, ard &sk at&s by eskablishingspec~~c criteriafor the use of
           each methodfor comple~ing~eldpricing. &rred on he usejdness of information read+
           available, instnrcl audilors toprovide telephone rate confinnotionras ihe prejerred method

           DCAA Ruponse: Partially concur. We disagreethat CAM does not provide adquate guidance
           for auditors to determine the circumstancesin which to use specific cost information techniques,
           desk reviews, or an agreed-upon procedure evaluation. CAM 9-107. la. identifies specific cost
           information techniques as applying to specific contractor costs without review of the contractor’s
           proposal. CAM 9-107.1 states:

                           In connection with a pricing action, a PC0 may request specific
                           information concerning a contractor’s costs without requesting any
                           review of the contractor proposal        Tbe PC0 may request specific
                           cost information by telephone, or in writing. directly from the field
                           auditor. Written requests are sometima desirable for clarity. but will
                           not be required.

                    CAM 9-103.3 defines a desk review, identifies when use of a desk review may be
            appropriate, and provides criteria for auditors to use in dclamining ifit is appropriate to conduct
            a desk review. CAM 9-103.3e. and f. state:

                              A desk review consists of a comparison of the contractor’s
                          proposal with audit data available or readily obtainable at the
                          FAO        It involves more than merely checking the contractor’s




                                                           32
                                     Defense Contract Audit Agency Comments




PST 225.4
SUFUECT~       Response to DoDIG Dratl Evaluation Report on Defense Gmtraa            Audit Agency
               Reviews of Price Proposals (Project No. 6OC-0086 I)

              arithmetic        Desk review procedures        may result in a
              conclusion that SufIlcient information is available in the files from
              other audits to form the basis for expression of an opinion on the
              contractor’s cost statement (estimate or incurred). In such cases,
              care should be taken to assure that the auditor has complied with
              government auditing standards.

        CA!! 9-108 defines an application of agreed-upon procedure, indicates when it
will be applied. and guides auditors to gain a clear understanding of the requester’s needs,
which includes conveying information which may be considered in finalizing the request,
CAM 9-108 states:

               Applications of agreed-upon procedures are reviews of limited
               information       Applications of agreed-upon procedures include
               cost reaIii reviews and all reviews of information other than cost or
               pricing data submitted in support of a price proposal In petfotmmg
               an application of an agreed-upon procedure, only a portion of a
               proposed cost element is reviewed, not the entire cost element
               Proposed.

         The principal difference between these methods is not as the draR report contends, “the
significant amount of working papers, administrative forms, and formal reports associated with
agreed-upon procedures and desk audits compared to the siiple confumation forms used to
provide telephone rate conllrmation.” The principal difference is in the level of assurance that the
auditor provides:


       A desk review renders an audit opinion on the contractor’s proposal taken as a whole.
       An agreed-upon procedure evahration, while dirclaiming an opinion on the proposal taken
       as whole, incbdea pe&rmance of Procedures rquested by the arstomer.
       Use of specific cost information techniques involves the application of no current
       procedures. It merely provides data that is contained in the audit files, and is based on
       previously provided contmaor data and prior audidevaluations.

       Over the years, DCAA has increased the diRerent types of forward pricing setvices
offeredinaneffort to meet our customers’ needs, Provide better service, and conserve audit
resomws. As a result we no longer just provide Ml proI&    reviews and reviews of apecilic cost
                                          of
information. Guidance on all these types evaluations and when they are to be used ate induded
in CAM Chapter 9 in various places. Nevuthebss, we agree that its presemation may be
improved. Tharfore, for auditor ease in wmpatison of the d&rent typer of auvices that can be
accomplished we will enhance Chapter 9 to wccinotly present, in one location, the di&rent types
of forward pricing evaluations

      This presentation till defme each type of service, reference where in CAM more
comprehensive guidance is located, and summ&ze the important aspects of the

                                               6




                                                   33
               Defense Contract Audit Agency Comments



Final Report
 Reference



                           PFC 225.4
                           SL’BJECT         Responseto DoDlG Draft Evaluation Report on DefenseContract Audit Agency
                                            Reviews of Price Proposals(Project No. 6OC-0086 1)

                           audit/evaluation/specificinformation. Within 60 days of the receipt of the final IG report, we will
                           issuea Memorandum for Regional Directors advising them of this CAM revision. Our response
                           to recommendation  1.a. addressestelephonerate cdirmations


   Revised                         c. Amend the Ik~mse ConrracrAudit Manual, section 9-103.1(d).(3). lo inclua!e
                           contractors a& h:gher tier subcontmc~ors among those that the audttor should drjcustfieki
                           prtcing requests with. Guiabnce should slate lha~ auditors should discuss/iridpricittg    requests
                           wrth the rnrtrating requestor who may be aprtme contractor or higher-tier subcontractor.    rn
                           oddfiott   IO a Contracrtng Oflcer or an Aabtnistralive   Contracting Officer.


                           DCAA Response: Nonconcur Both FAR Part IS and the proposed rule for the Department of
                           DefenseFederal Acquisition Regulation Supplement(DFARS) Part 215 provide thawthe
                           contracting officer is responsiblefor the determinationof price reasonableness. Proposed DFARS
                           215 404-3(a)@) provides that the contracting officer or the AC0 should consider assistingthe
                           contractor ifit is in the Government’3 intcre3ts. It states:

                                            It may be appropriatefor the contracting officer or the AC0 to
                                            provide assistanceto a contractor at any tier where the contractor has
                                            been deniedaccessto a subcontractor’srecords           Under these
                                            circumstances,the contracting officer or the AC0 should consider
                                            whether providing audit or field pricing assistancewill serve a valid
                                            Government interest.

                                   We disagreethat DCM policy should require auditors cognizant over subcontractorsto
                           contact each and every contractor to discussrequestsfor services Contracting officers and/or
                           AC03 are already interfacing with the contractor to determineif providingrssistattceis in the
                           govemmmt’s interest. Thi3 requiresan understttndii of what the contractor is requesting. CAM
                           Q-106requires the auditor at the higher-tier contractor level to be satisfiedthat the
                           audit/evaluation of tbe subcontractorbe in the government’s interestsand to coordinate on the
                           appropriatenessof the requestwith the contracting officer/AGO. Auditors at the subcontractor
                           level do not have the visibility neededto determineif assistingthe contractor is in the best
                           interests of the government.

                                   DCAA’s customeris the cormacting officer/AGO, not the contractor This is the
                           customerthat DCAA would interfacewith to obtain an uttderstamiiig of the se&es required.
                           Since government representatives inch&g the a&or qnizant of the contractor, are actively
                           interking with the contractor prior to the auditor cognizant of the subcontractor receiving the
                           request, having the government repmxntatives at both the contractor and subcontmctor levels
                           interface with the contractor does not serveI useful purpose In most cases,the gOVemm*l1
                           representativesat the higher level will be able to provide claritication of servicesto be performed.
                           when they cumot, it is essentialthat the gOVrmmenl represmtativa at the higher level obtain
                           such clarification from the contractor, so that they remainaware of the scopeof the audit king
                            conducted at the subcontractlevel. If time is of the essence,current polii does not prohibit
                           auditors at the subcontractorlevel tiom having &tit&g       disasssionswith the contractor.




                                                                            34
                                          Defense Contract Audit Agency Comments




    PFC 225 4
    SUBJECT:       Responseto DoDIG Draft Evaluation Report on Defense Contract Audit Agency
                   Reviews of Price Proposals (Project No. 6OC-0066.1)



    Recommendation 2. We recommend rhat the Director, Defense Contract Audit Agency reuvire
    gzddance in the PA0 Management lnjomation System User Manual on the use o/rate
    contmtations to a&d interpretati~     that telephone mte contrmations should ot(y be used to
    respond IO an oral reque$?. Ihal guiabnce should be consistent with the gui&ance in the Contact
    Audit Mmual.

    DCAA Response: Concur. The draft report states that “the DCAA FMIS User Manual,
    Appendix C provides guidance on rate confirmation procedures for low-risk audit requests.
    However, the FMIS guidance differs from guidance in CAM.” This is not correct. The FAO
    Management Information System @MIS) User Manual does not provide guidance on the conduct
    of requests for specific cost information (telephone rate requests). Rather it provides guidance
    and instructions to the audit and administrative staff for the operation and maintenance of FMIS.
    The FMIS Manual in Appendix C includes a description of the time codes that auditors are to use
    in classifying their time charges. CAM prescribesauditing policies and procedures and furnishes
    guidance in auditing techniques for personnel engaged in the performance of the DCAA mission
    Auditors look to the CAM for guidance on the performance of requests for specific cost
    information not to the FMIS User Manual.

            While we believe that auditors understand that the use of the time code 25000 is not
    limited to the form of the rquest, but to the type of services that are provided to a customer, we
    will clarify the FMIS User Manual description of 25000 - Telephone Rate Requests which
    currently state-s:

                   Represents effort expended to respond to verbal requests for
                   confnmation of rates or other pricing data which have already been
                   determined. Dollars will not be reported under these assignments.

    The clarification will focus on the auditor action of providing confirmation of data that has already
    been determined regardlessof tbe manner in which the tice         was requested and move away
    from the use of the term “verbal requests”. Within 60 days of the receipt of the tinal IG report,
    we will issue a Memorandum for Regional Diiors          advising them of this FMIS revision.




I                                                                                                           1




                                            35
Defense Contract Audit Agency Comments




           PFC 225.4
           SUBJECT:      Response to DoDlGDnfr EvaluationReport on Defense Contract Audit Agcucy
                         kvicws of Price Pmpos~ls(Pmjcct No. 6OC4086.1)


                  If you have any questions,please contact Ms. Joyce Friedland,Program Wager;
           Pricing, Finnnce, and Claims Division a~(703) 767-2270,or Mr. Robeti DiMucci,Deputy
           Assistant Director, Policy and Plans at (703)767-3282.




                                                    w      LawrenceP. Uhlfclda
                                                           Assistant Director
                                                           Policy and Plans




                                                                                                   J




                                                        36
Evaluation Team Members

This report was prepared by the Deputy Assistant Inspector General for Audit
Policy and Oversight, Office of the Assistant Inspector General for Auditing,
DOD.

Wayne C. Berry
Madelaine E. Fusfield
Terrence J. Letko
Lisa Y. Johnson
Dharam V. Jain
Ana A. King
